No. 20-5795

________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________
DONALD MITCHELL TEDFORD,
Petitioner,
vs.
COMMONWEALTH OF PENNSYLVANIA,
Respondent.

_____________________
On Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania

_____________________
REPLY BRIEF FOR PETITIONER

_____________________

BRUCE A. ANTKOWIAK
SAINT VINCENT COLLEGE
300 FRASER PURCHASE ROAD
LATROBE, PA 15650
(724)805-2940

ADAM B. COGAN
Counsel of Record
218 WEST MAIN STREET
SUITE A
LIGONIER, PA 15658
(724)995-8579

ATTORNEYS FOR THE PETITIONER

________________________________________________

TABLE OF CONTENTS
Section

Page

Table of Authorities

ii

Reply Brief for Petitioner

1

Conclusion

11

i

TABLE OF AUTHORITIES
Cases

Page

Brady v. Maryland, 373 U.S. 83 (1963)

passim

Cone v. Bell, 556 U.S. 449 (2009)

7

Kyles v. Whitley, 514 U.S. 419 (1995)

6-7

McGee v. McFadden, ___ U.S. ___, 139 S.Ct. 2608 (2019)

7

Pennsylvania v. Ritchie, 480 U.S. 39 (1987)

6

Reed v. Texas, ___ U.S. ___, 140 S.Ct. 686 (2000)

9-10

Strickler v. Green, 527 U.S. 263 (1999)

7

United States v. Agurs, 427 U.S. 97 (1976)

6

United States v. Bagley, 473 U.S. 667 (1985)

6

Weary v. Cain, ___ U.S. ___, 136 S.Ct. 1002 (2016)

7

Constitutional Provisions, Statutes and Rules
Fourteenth Amendment, Section 1,
to the United States Constitution

passim

Pennsylvania Rule of Professional Conduct 3.8

ii

9

REPLY BRIEF FOR PETITIONER
The Brief in Opposition to the Petition for a Writ of Certiorari filed by Donald
Tedford contains matters which both compel a response and which demonstrate
why a compelling need exists for the petition to be granted.
If the Attorney General of Pennsylvania’s position is ultimately upheld,
Tedford will be executed as the last act of a tragedy of prosecutorial misconduct,
critical failures by his prior counsel to act in a zealous and timely fashion, and the
indifference of the Courts to the grave injustice that happens when the search for
truth becomes irrelevant and is sacrificed on the altar of expedience.
From the outset of this case, an unbroken chain of acts of prosecutorial
misconduct have occurred that began when the Commonwealth assured Tedford’s
trial counsel that it had provided him with all of the discovery information that both
the Rules of the Commonwealth of Pennsylvania and the United States
Constitution require that he receive.

To be sure, that pre-trial process was

corrupted not only by the categorical misrepresentations by the Commonwealth
that it had fulfilled its statutory and Constitutional duty up to that point but also
by the incompetence and pitiful complacency of Tedford’s trial counsel who did
absolutely nothing to probe further to discover critical evidence about this most
highly disputable case.
Once the trial process was over and Tedford’s appeals began, the
Commonwealth categorically asserted for two and half decades that the initial
representation by the District Attorney’s Office was correct and that no information

1

was to be left in its files that should have been disclosed. The Courts uniformly
accepted those representations and, when Tedford’s initial lawyers did not
adequately challenge them, readily dismissed his claims, allowing his case to stay
on the track for execution.
Thus, in its initial stance prior to trial and in the position it steadfastly held
during the appellate process, the Commonwealth purported to exercise its solemn
Constitutional and ethical duty by assuring the Courts that all discovery had been
provided and that nothing further remained for Tedford to review. Implicit in that
representation was that the procedural due process protections afforded by the
Rules of the Commonwealth of Pennsylvania and the substantive due process
protections afforded by the Brady doctrine had all been fulfilled.
It became apparent, however, that these representations were simply wrong
and, whether committed advertently or inadvertently, they formed part of a
systematic denial of due process that has continued until this very day.
For the first 25 years since the death penalty was imposed, the
Commonwealth stood by its representation that it had disclosed everything to
Tedford in pre-trial discovery. But after the letter of March 4, 2011, in which the
Pennsylvania State Police acknowledged that they had collected over 800
documents constituting crime reports, incidents reports, interviews, investigative
action, property received, medical information, suspect information, diagrams,
reports by the local police and psychiatric reports all in direct connection to the
murder of Jeanine Revak, it became painfully obvious that Tedford’s receipt of only

2

about 40-45 percent of that number of documents represented a complete failure of
the procedural due process rights he has arising from the application of state
discovery rules and the Fourteenth Amendment due process rights he has under the
doctrine of Brady v. Maryland, 373 U.S. 83 (1963).
Upon the revelation of this catastrophic failure by the Commonwealth, the
system should have demanded that the Commonwealth reconcile this unexplained
and unexplainable deficiency and make available all of those documents that should
have been disclosed in the normal discovery process prior to trial. At a minimum,
that would have satisfied certain procedural due process interests of Tedford lest
the Rules of the Pennsylvania Court system be rendered a nullity. But instead, the
Commonwealth dug in its heels and opposed any further disclosure.
Instead of repudiating the relentless series of improper misrepresentations
the Commonwealth made to every level of the Court system in Pennsylvania and to
the federal Courts considering the matter on habeas review, the Commonwealth
sought the Courts’ support in an ongoing effort to keep Tedford and the public from
knowing the full details about what it had improperly hidden for over two decades.
But while today the denials of the existence of these other discoverable
materials are not repeated, an assertion has now been made that makes a mockery
of the Brady doctrine and invites this Court to become an accomplice by way of
indifference in the continuing violation of the basic principles of the adversary
system and what is supposed to be its paramount concern that the truth be sought
in all respects.

3

For in the Commonwealth’s present pleading there is the preposterous
assertion that, since the Commonwealth did not keep track of the materials it gave
to Tedford prior to trial, before the Commonwealth exercises its duty to review and
disclose to him the materials to which he is entitled on multiple levels, Tedford is
somehow obligated to inventory for the Commonwealth the evidence it has already
given him. See, Commonwealth’s Brief at pages 25-26. While the Commonwealth
intends to do nothing now, it asserts that “upon receipt of [Tedford’s documents],
the Commonwealth would do another good faith review of the 823 pages in the PSP
file to determine whether the law requires anything additional to be produced to
Tedford.” Commonwealth Brief at page 26.
This statement indicates one of three deeply troubling conclusions, each of
which requires the Court’s intervention: a) the Commonwealth is unaware1 of its

Upon the filing of Tedford’s Reply Brief, the attorney for the Commonwealth sent
the following email to counsel:
1

Adam:
Respectfully, I request that you file an amended reply brief in the US Supreme
Court that removes the allegations that in Mr. Tedford’s case, I personally have
engaged in professional misconduct and have performed my job
incompetently. These harsh statements are inaccurate and defamatory. While
there must be room for oratorical flair and zeal in the representation of clients, and
while it is common for opposing counsel to disagree about the law and the facts at
issue, I believe these two accusations cross a line and violate the Rules of the US
Supreme Court Bar and the Pennsylvania Rules of Professional Conduct.
Thank you for your consideration of this request.
Sincerely,
Will
That this matter not be diverted further from the critical issues that involve
Tedford’s execution, the following must be clarified.
4

Constitutional duties in this regard; b) it is confused as to the legal standards this
As stated in Tedford’s initial Reply Brief, Tedford does not seek any sanction
against any Commonwealth attorney and casts no personal allegation of any kind
against William R. Stoycos nor can he, as Tedford is presently unaware of what is
specifically contained in the hundreds of pages of withheld discovery.
The facts of this matter, which are essentially not in dispute, form the basis of
Tedford’s claim that a systematic violation of his due process rights has occurred
throughout the course of this litigation. Prior to trial, Tedford’s lawyer was assured
he was given all the discovery available. He wrongfully accepted that assurance and
Tedford went to trial fundamentally unprepared. For the following 25 years,
Tedford claimed that other discovery existed, but he was consistently assured by the
Commonwealth that none was to be found. The letter of March 4, 2011,
demonstrates that this assurance was wrong.
A simple arithmetic calculation demonstrates that hundreds of pages of documents
gathered directly in relation to this murder were not ever given to Tedford. It is
now well over 30 years since the trial and he has still never seen this material. It
should have been produced before trial. It should have been made available when
the revelation of its existence was discovered. But it remains hidden from him.
The current position of the Office of the Attorney General on this matter is not
supported by any precedent and is contrary to the categorical teachings of this
Court that the obligation to determine the existence of Brady material and to
disclose it immediately is squarely placed on the prosecution regardless of any
preconditions on the defendant’s actions. The obligation to turn over properly
discoverable material, be it to correct a failure to abide by the Discovery Rules of
Court pre-trial or the Brady obligation which a prosecutor carries throughout the
course of a case, is not and has never been conditioned on a defendant providing an
inventory of the information in his file. To accept the Attorney General’s position is
to contradict well-established jurisprudence in this area and cannot be sustained.
Again, Tedford has and had no intention of setting forth an ad hominum attack on
the person of opposing counsel in this appeal. To the extent this Court would read
his pleading in that way to any extent, he hereby amends it.
And while the Commonwealth’s Brief in Opposition, which was filed one day late
despite Tedford previously consenting to four extensions of time and to which
Tedford filed no objection, certainly set forth various stinging remarks with respect
to undersigned counsel, the focus must remain on this: a man is on death row for a
crime he has consistently and strenuously claimed he did not commit and the
evidence adduced against him at trail hardly made the finding of his guilt a
foregone conclusion. Before he is executed, the demands of Due Process and our
basic sense of fairness must call upon some Court somewhere to require that
hundreds of pages of investigative reports on this murder be made accessible to him
and to the public. A relentless search for the truth in a matter of this ultimate
gravity requires nothing less.

5

Court has set down which govern that obligation; or c) the Commonwealth simply
wishes to avoid the necessity of giving Tedford documents which it might already
suspect could provide him the basis to seek further relief in the Courts.
In any event, the Commonwealth’s position is wrong and cannot be supported
by this Court.
There is absolutely no obligation for a defendant to state what the
Commonwealth has already given him in discovery before the Commonwealth is
obligated to given him what they are Constitutionally obligated to disclose under
Brady. No case is cited for this proposition in the Commonwealth’s brief and none
exists.

To the contrary, the law has always been that the obligation on the

Commonwealth to disclose Brady material exists even if the defendant does not
even make a request for such material. See, United States v. Bagley, 473 U.S. 667,
682 (1985); Kyles v. Whitley, 514 U.S. 419, 443 (1995). The government has an
ongoing, affirmative duty to learn of the existence of any favorable material and to
disclose it at any time such information is discovered.

Kyles, Supra. at 437;

Pennsylvania v. Ritchie, 480 U.S. 39, 60 (1987). An absolute duty is imposed on a
prosecutor to gauge the potential effect of material in the government’s file and, as
this Court has admonished, a prosecutor “anxious about tacking to close to the wind
will disclose a favorable piece of evidence,” Kyles, Supra. at 439. That prosecutor
will, if he or she is “prudent” always “resolve doubtful questions in favor of
disclosure.” United States v. Agurs, 427 U.S. 97, 108 (1976). This Court has been

6

clear: to resolve any doubts in favor of disclosure “is as it should be.” Kyles, supra.
at 437-438.
Whether the failure to disclose the information has been willful or
inadvertent is immaterial; if the undisclosed evidence is sufficiently material, relief
is mandated. Strickler v. Green, 527 U.S. 263, 281 to 282 (1999). Whether the
information involves directly exculpatory information, information which would
simply in its cumulative effect be favorable, or whether it involves impeachment of
witnesses that may begin the toppling of a “house of cards of a key witness,”
disclosure is categorically mandated without any requirement whatsoever that the
defendant do anything. See, Kyles, supra. at 436; Weary v. Cain, ___ U.S. ___, ___,
136 S.Ct. 1002, 1004 (2016).
In assessing the nature of evidence that might reach the standard of
prejudice and must therefore be disclosed, the prosecutor must realize that all the
defendant needs to show is that the undisclosed evidence would undermine the
confidence in the verdict, not that it would absolutely result in his acquittal. See,
McGee v. McFadden, ___ U.S. ___, ___, 139 S.Ct. 2608, 2609 (2019) (Justice
Sotomayor dissenting), quoting Kyles, supra. As this Court held in Cone v. Bell,
556 U.S. 449, 452 (2009), if the withheld evidence would have a reasonable
probability of altering the assessment of at least one juror, the standard has been
made out.
Any representation by Commonwealth to this point that no such Brady
material exists in the enormous volume of documents it has withheld for over three

7

decades must be looked at with more than a jaundiced eye by this Court. The same
Commonwealth that assured Court after Court in Pennsylvania and the federal
system that no such discovery existed now must understand the deep skepticism
any fair-minded person would have in accepting its representation that nothing
within the mass of undisclosed evidence possessed by the Pennsylvania State Police,
evidence which is specifically related to the particulars of investigation of this case,
is at all relevant to issues of guilt or innocence. Is it even conceivably possible that
no document within the hundreds of undisclosed pages could not possibly meet the
standard of prejudice that this Court has laid out or, at a minimum, be disclosed to
a defendant so he can determine if an application to a Court for relief regarding
that evidence is warranted?
The Commonwealth’s proposal makes a farce of the trial process. Procedural
due process requires the Commonwealth to follow the Rules of Court by way of pretrial discovery. The Commonwealth’s position now is that after having recognized
that the trial prosecutor’s failed to fulfill their pre-trial obligations with respect to
discovery, the Commonwealth is excused from having to remedy that violation since
that violation of the rules has remain hidden until after the pre-trial process was
over. Basic procedural due process norms can never embrace such a disregard of
the basic rules Court.
But beyond that, having failed to acknowledge the existence of these
materials in pleading after pleading, the Commonwealth again seeks a safe harbor
from any sanction/remedy that should properly be placed against it either under the

8

Constitution or, even more specifically, under the Rules of Professional Conduct
which obligate prosecutors to make timely disclosure of all evidence or information
known to them that tends to negate guilt or mitigates the offense.

See,

Pennsylvania Rule of Professional Conduct 3.8.2
What Tedford seeks, however, is not a sanction against individual
Commonwealth attorneys. His plea is for a remedy for the violation of his basic
procedural and substantive due process rights that have occurred every day since
the time the first misrepresentations were made to his trial counsel and through the
moment that this Court is contemplating this present pleading.
To correct the incompetence of his prior counsel and the corruption of the
system brought about by the Commonwealth’s misrepresentations and its ongoing
failure to acknowledge the reality of its Brady obligations here, the only proper
remedy is to permit Tedford to view the materials that the Commonwealth now has
hidden within the vault of the Pennsylvania State Police. If his lawyers can
thereafter make a proper, good faith claim that there is something that Tedford has
never received and that it does support a finding of the requisite level of prejudice to
justify relief, the lower courts may order a hearing to determine whether the
documents so withheld meet the standard of materiality this Court has carefully
articulated.
Recently, this Honorable Court denied Certiorari in Reed v. Texas, ___ U.S.
___, 140 S.Ct. 686 (2000). In a concurring opinion, Justice Sotomayor detailed the
The Pennsylvania Rules of Professional Conduct are a standard model of
professional conduct generally adopted in most jurisdictions.
2

9

Brady claims made by the defendant in that case and observed that those claims
cast a “pall of uncertainty” over the death penalty verdict rendered there. She
further and properly observed that there was no “denying the irreversible
consequence of setting that uncertainty aside.” Id. at 689 to 690.
In the present case, any thoughtful examination of the evidence produced
against Tedford will lead the observer to see that a similarly dark and ominous pall
of uncertainty is cast over the issue of whether he is the true killer of Jeanine
Revak.

Indeed, any fair appraisal of that evidence (see, Tedford’s Certiorari

Petition, pages 2-7) will reveal that there is nothing of any real certainty about this
case except that more of the truth is yet to be known.
Justice Sotomayor concurred in Reed v. Texas because she hoped that the
state process would address the uncertainty there and offer a meaningful remedy.
That hope cannot be extended to Tedford’s case. The Pennsylvania Courts have
fully embraced an attitude of indifference to the grave injustice that has occurred
here.

Those Courts have ratified the Commonwealth’s distortion of its Brady

obligations and have turned a deaf ear to the Commonwealth’s imperious attitude
that its clear violation of the procedural due process requirements of the discovery
rules are excusable since that violation was hidden for a sufficient length of time
and that it need not fulfill its Brady obligation in full until Tedford performs an act
no Court has ever required of any defendant similarly situated.
This Honorable Court must not become a party to this farce. It must not help
write the last act of this tragedy. It must not silence the truth and pass over this

10

case without giving it the careful scrutiny the grave injustices that have occurred
here over time most earnestly demand.
CONCLUSION
The petition for a writ of certiorari should be granted.

ADAM B. COGAN
Counsel of Record
218 West Main Street
Suite A
Ligonier, PA 15658
adamcogan@aol.com
(724) 995-8579
BRUCE A. ANTKOWIAK
Saint Vincent College
300 Fraser Purchase Road
Latrobe, PA 15650
February 25, 2021

11

